HHS/OIG, Audit -"Ryan White Title I Funds Claimed by a Contractor of the Miami-Dade Eligible Metropolitan Area
During the Fiscal Year Ended February 28, 2002,"(A-04-03-01001)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ryan White Title I Funds Claimed by a Contractor of the Miami-Dade Eligible Metropolitan Area During the Fiscal Year
Ended February 28, 2002," (A-04-03-01001)
August 13, 2004
Complete
Text of Report is available in PDF format (3.05 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if the Miami-Dade Eligible Metropolitan Area, managed by the Miami-Dade County
Office of Management and Budget’s (Budget Office), ensured that its contractor, Minorities Overcoming the Virus through
Education and Spirituality, Inc. (MOVERS), provided the expected program services and followed Federal requirements for
charging costs.  We found that the Budget Office did not ensure that MOVERS provided the expected level of services
to CARE Act Title I eligible clients.  In addition, MOVERS did not follow Federal requirements in charging costs to
the program.  As a result, the Budget Office reimbursed MOVERS $1,505,505 with little assurance that services were
provided, as reported, to the HIV community, and that the reimbursement was based on allowable costs.  We recommended
that the Budget Office improve its program and fiscal monitoring systems, conduct an in-depth review of MOVERS’ billed
services, and work with MOVERS to determine and review its actual costs for FY 2001.  Both the Budget Office and MOVERS
concurred with our findings and recommendations and both are taking corrective actions to improve their CARE Act Title
I programs.